XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3761
Facsimile: (415) 703-1234
E-Mail: Arthur.Beever@doj.ca.gov

March 8, 2021

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, NE
Washington, DC 20543
RE:

Travis v. California, No. 20-7252
Request for Extension of Time to File Response

Dear Mr. Harris:
I represent the respondent in the above-captioned capital case. The petition for
writ of certiorari in this case was filed on February 18, 2021, and the State’s response is
due by March 29, 2021. We have reviewed the petition and begun researching and
drafting the response. We require additional time, however, to complete the response and
to undergo the necessary internal review before our response is filed. For these reasons,
we respectfully request an extension of time in which to file the response to April 28,
2021.
Sincerely,

/s/ Arthur P. Beever
ARTHUR P. BEEVER
Deputy Attorney General
State Bar No. 242040
For

APB:
SF2021400370

XAVIER BECERRA
Attorney General

No. 20-7252

In the Supreme Court of the United States
JOHN RAYMOND TRAVIS, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Arthur P. Beever, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on March 18, 2021, three copies of a Letter to the Honorable Scott S.
Harris, Clerk, re: Request for Extension of Time to File Response in the above-entitled
case were mailed, first class postage prepaid to:
Mark E. Cutler
Attorney at Law
Post Office Box 172
Cool, CA 95614-0172
cutler@mac.com
(530) 885-7718
Counsel for Petitioner
I further certify that all parties required to be served have been served.
/s/ Arthur P. Beever
ARTHUR P. BEEVER, Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004
Telephone: (415) 510-3761
Counsel for Respondent
SF2021400370
42601235.docx

